DOE/IG-0452




               AUDIT
              REPORT


                               NUCLEAR MATERIAL PROTECTION,
                                 CONTROL, AND ACCOUNTING
                                        PROGRAM




                                        SEPTEMBER 1999



  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
   OFFICE OF AUDIT SERVICES
                                                September 16, 1999

MEMORANDUM FOR THE SECRETARY

FROM:                   Gregory H. Friedman (Signed)
                        Inspector General

SUBJECT:                INFORMATION: Audit Report on "Nuclear Material Protection, Control, and
                        Accounting Program"

BACKGROUND

Since 1994, the Department of Energy (Department) and its national laboratories have worked in the
successor states of the Former Soviet Union (FSU) to improve nuclear material security and accountability. The
goal of the Department's Nuclear Material Protection, Control, and Accounting (MPC&A) program is to reduce
the threat of nuclear proliferation and nuclear terrorism by rapidly upgrading physical protection and material control
and accounting systems at FSU facilities using modern technology and strict material control and accounting
principles. The Department is attempting to achieve this goal by providing assistance in the form of expertise, funds,
and equipment to facilities in the FSU that store, process, and/or transport plutonium or highly enriched uranium.

The Department has accomplished much towards achieving its goal of reducing the threat of nuclear
proliferation and nuclear terrorism. It made significant progress in expanding the number of FSU sites
participating in the program, from only 9 sites in Fiscal Year 1994 to 53 in Fiscal Year 1998. In addition,
U.S. MPC&A project teams developed productive working relationships with FSU personnel and installed site-
wide MPC&A systems, which reduced the threat of nuclear proliferation and nuclear terrorism at
numerous FSU sites.

The objective of the audit was to assess whether the Department ensured that funds and equipment provided to the
FSU under the MPC&A program were accounted for and used for their intended purposes.

RESULTS OF AUDIT

Although the Department accounted for funds and the purchase of equipment provided to the FSU under the
MPC&A program, improvements are needed to ensure that funds and equipment are used for their intended
purposes. We identified instances where low priority upgrades were planned and funded. In a number of
locations, U.S. project teams lacked access to facilities which impaired their ability to establish priorities and to
determine that upgrades were functioning as intended. Further, contractors did not always adhere to strategic plan
guidelines, there was limited Federal oversight, and the Department lacked specific policy on the minimum
acceptable level of access to facilities and information. The conditions resulted in: (i) the expenditure of
approximately $929,000 for which little reduction of risk to weapons-usable nuclear material was achieved; and,
(ii) reduced assurance that certain MPC&A upgrades were justified, properly installed, used, and maintained.
An additional matter, taxes assessed on Russian Institutes for the value of MPC&A assistance received, is
discussed in this report. It is unclear whether MPC&A funds were used to pay these taxes, and the institutes had
not provided the Department with amounts paid and/or accrued. An MPC&A Task Force member familiar with
the issue estimated the amounts to be significant. The Russian Federation has recently passed legislation that may
resolve this issue. The Department is also attempting to address this issue in an agreement under negotiation with
the Russian Ministry of Atomic Energy. Timely resolution is important, as the conditions the MPC&A program
seeks to address are due, in part, to the financial crisis faced by the Russian Institutes. The financial burden created
by these tax levies may further weaken economic conditions at the institutes, exacerbating the problem that the
MPC&A program is attempting to mitigate.

MANAGEMENT REACTION

The Assistant Secretary for Nonproliferation and National Security concurred with the finding and
recommendations, and indicated that the review and related recommendations will assist in strengthening the
MPC&A program. Planned and implemented corrective actions outlined by the Assistant Secretary are
responsive to our recommendations. In addition, the Assistant Secretary noted that the new Russian tax law will
greatly help the program obtain tax exemptions.

Attachment

cc: Deputy Secretary
    Under Secretary
Nuclear Material Protection, Control, And Accounting Program



TABLE OF
CONTENTS



                    Overview

                    Introduction And Objective......................................................................1

                    Conclusions And Observations.................................................................2


                    Prioritization And Function Of MPC&A Upgrades

                    Details Of Finding...................................................................................5

                    Recommendations And Comments ........................................................11


                    Appendices

                    1. Scope And Methodology.................................................................13

                    2. Prior Office Of Inspector General And
                       General Accounting Office Reports .................................................15
Overview

INTRODUCTION AND   During the Cold War, the United States and the Soviet Union amassed
OBJECTIVE          large stockpiles of plutonium and highly enriched uranium. These
                   materials are essential to the production of nuclear weapons, and
                   acquisition of even small quantities could enable a non-nuclear state or
                   terrorist group to build a nuclear weapon. Acquisition of these materials is
                   the most difficult step in the weapons manufacturing process because
                   construction of the facilities needed to produce and refine plutonium and
                   highly enriched uranium takes many years and requires capabilities well
                   beyond those of non-state organizations. Thus, plutonium and highly
                   enriched uranium in weapons-useable form are extremely attractive to
                   non-nuclear states and terrorist organizations seeking to develop nuclear
                   arms.

                   The Soviet Union's Cold War era system of protecting its nuclear materials
                   from theft or diversion focused primarily on countering external threats
                   through the use of military guards and constant surveillance by state
                   security forces. "Insider" threat scenarios were considered unlikely
                   because workers within nuclear facilities enjoyed superior wages, social
                   status, and other benefits. Until the end of the Cold War, the approach of
                   "guards, guns, and gates" proved highly effective. However, the breakup
                   of the Soviet Union in 1991 and current economic and political crises in
                   the former states of the Soviet Union (commonly referred to as the FSU)
                   substantially weakened the Soviet-era system of nuclear material
                   protection, control, and accounting.

                   The recent economic and political changes in the FSU have left weapons-
                   useable nuclear material vulnerable to theft and/or diversion. Budget cuts
                   have decreased the number and effectiveness of guard force personnel,
                   security system maintenance activities, and operational readiness. Efforts
                   to reduce costs and retain key scientific personnel have taken priority over
                   spending for nuclear material security systems. In addition, nuclear facility
                   workers who once enjoyed a superior standard of living now face difficult
                   circumstances. Workers have not received wages, and the quality of
                   available food, housing, and medical care has declined. Combined, these
                   factors increase the potential for both "outsider" and "insider" threat
                   scenarios.

                   Since 1994, the Department and its national laboratories have worked in
                   the FSU to improve nuclear material security and accountability at sites
                   containing weapons-useable material. The goal of the Department's
                   MPC&A program is to reduce the threat of nuclear proliferation and
                   nuclear terrorism by rapidly upgrading physical protection and material
Page 1
                                                                   Introduction And Objective
                  control and accounting systems at FSU facilities using modern technology
                  and strict material control and accounting principles. The Department is
                  attempting to achieve this goal by providing assistance in the form of
                  expertise, funds, and equipment to facilities that store, process, and/or
                  transport plutonium or highly enriched uranium, and assisting the FSU in
                  the development of an MPC&A regulatory infrastructure.

                  Within the Department, responsibility for the MPC&A program resides
                  with the Office of Nonproliferation and National Security's MPC&A
                  Task Force. The Task Force is responsible for program planning, policy,
                  guidance, and management. Planning, execution, and management of
                  individual projects are accomplished through contractor personnel at the
                  Department's national laboratories (Sandia, Los Alamos, Lawrence
                  Livermore, Oak Ridge, Pacific Northwest National Laboratory,
                  Argonne, and Brookhaven). For Fiscal Year (FY) 1998, the program
                  consisted of 80 projects with a total budget of approximately $132
                  million. For FY 1999, there were 77 projects with a total budget of
                  approximately $137 million.

                  The objective of the audit was to assess whether the Department
                  ensured that funds and equipment provided to the Former Soviet Union
                  under the Material Protection, Control, and Accounting program were
                  accounted for and used for their intended purposes.

CONCLUSIONS AND   The Department accounted for funds and the purchase of equipment
OBSERVATIONS      provided to the FSU under the MPC&A program. However,
                  programmatic improvements are needed to ensure that funds and
                  equipment are used for their intended purposes. Specifically, the
                  Department lacked assurance that resources were used to fund upgrades
                  on a prioritized basis and that installed upgrades were functioning as
                  intended. We identified instances where low priority upgrades were
                  planned and funded at FSU facilities. In addition, upgrades were planned
                  and funded where priorities and strategies could not be fully established
                  and where the continued use and function of upgrades could not be fully
                  ascertained. Low priority upgrades were planned and funded because
                  contractors did not always adhere to strategic plan guidelines, and
                  because of limited Federal oversight. Upgrades were planned and
                  funded where upgrade priorities, strategies, and continued use could not
                  be fully established because the Department had not developed specific
                  policy on the minimum level of access to facilities


Page 2                                                        Introduction And Objective/
                                                           Conclusions And Observations
         and information required to make these determinations. The low priority
         upgrades we identified cost $929,000, an amount for which little actual
         reduction of risk to weapons-useable nuclear material was achieved.
         For facilities where the Department could not fully establish priorities and
         monitor upgrade status, it could not fully determine that related upgrades
         were justified, properly installed, used, and maintained.

         The Government Performance and Results Act (GPRA) of 1993 was
         designed to improve Federal program effectiveness by promoting a new
         focus on program results and improving management of the Federal
         Government. As required by GPRA, the Department prepared a
         strategic plan that was issued in September 1997. In the plan, one of
         the strategies designed to achieve national security objectives is to work
         with the states of the FSU to minimize the risks of proliferation. In
         order to meet the intent of GPRA, as well as its own strategic plan
         objectives, the Department needs to enhance its system of controls to
         address the matters noted in this report. Management should also
         consider the issues discussed in this report when preparing the yearend
         assurance memorandum on internal controls.

         An additional concern regarding MPC&A funds is taxes assessed on
         Russian Institutes for the value of assistance received. The Russian
         Federation had taxed Russian Institutes participating in the MPC&A
         program, as well as other U.S. cooperative programs. In the case of the
         MPC&A program, taxes were assessed based on the value of the
         assistance the institute received. Although it is unclear whether MPC&A
         funds were used to pay these taxes, and the institutes had not provided
         the Department with amounts paid and/or accrued, a Task Force
         member familiar with the issue estimated the amounts to be significant.
         Timely resolution of this issue is important, as the conditions the program
         seeks to address are due, in part, to the financial crisis faced by the
         Russian Institutes. The financial burden created by these tax levies may
         further weaken economic conditions at the institutes, exacerbating the
         problem that the MPC&A program is attempting to mitigate.

         The Russian Federation recently ratified new legislation that may
         exempt MPC&A assistance from taxation, depending on how it is
         implemented. Implementation will be governed by subsequent
         legislation, that, according to a Task Force member, will take a minimum
         of 3 months to complete. The Department is also attempting to resolve
         this issue in a new agreement concerning MPC&A

Page 3                                              Conclusions And Observations
         cooperation with the Russian Ministry of Atomic Energy (Minatom). The
         agreement, currently in draft, contains language exempting MPC&A funds
         and equipment from all taxes, tariffs, customs duties, and levies of the
         Russian Federation. However, until the agreement is finalized, its impact on
         this issue is unknown.




                                                   Signed
                                       Office of Inspector General




Page 4                                          Conclusions And Observations
Prioritization And Function Of MPC&A Upgrades

                        The Department lacked assurance that MPC&A resources were used to
                        fund upgrades on a prioritized basis and that installed upgrades were
                        functioning as intended. Specifically, U.S. project teams planned and funded
                        low-priority MPC&A upgrades. Furthermore, upgrades were planned and
                        funded where priorities and strategies could not be fully established and
                        where the use and function of upgrades could not be fully ascertained.


Low Priority Upgrades   Low priority upgrades were included in projects planned and funded at FSU
Included In MPC&A       facilities. Specifically, three of the nine projects reviewed included upgrades
Projects                that were designed to secure materials of little proliferation risk, equipment
                        that was purchased despite uncertainty as to its need, and upgrades that
                        were not clearly related to the protection of nuclear material. Specifically:

                        •   A project managed by Lawrence Livermore National Laboratory
                            (LLNL) included planned funding of $878,000 for upgrades to a facility
                            handling only Low Enriched Uranium. Low Enriched Uranium was not
                            considered a significant proliferation risk. These upgrades were cited in
                            an internal peer review as unnecessary and were subsequently
                            reconsidered by the LLNL project team. However, the project team
                            had already purchased equipment to support these upgrades at a cost of
                            about $358,000 prior to their termination.

                        •   A Los Alamos National Laboratory (LANL) project team purchased a
                            piece of equipment in support of an MPC&A project at a nuclear
                            reactor facility. However, the need for this equipment was contingent
                            upon conversion of the reactor core, and no firm agreement existed as
                            to when or if core conversion would take place. The equipment cost
                            approximately $135,000 and, at the time of the audit, was stored at
                            LANL.

                        •   Another LANL-managed project included the installation of a fiber optic
                            network backbone at an FSU nuclear site. The network backbone was
                            designed to link six site facilities to a site administrative center. This
                            activity was included in the project plan, even though the project team
                            had not identified the MPC&A uses for the fiber optic backbone or how
                            it would reduce proliferation risk. An internal peer review of the project
                            recommended that completion of the backbone be suspended until it
                            could be justified.



Page 5                                                                           Details Of Finding
                              However, a substantial portion of the project had already been
                              completed at a cost of about $436,000.

                                Upgrade Priority, Strategy, And Use Could Not Be Fully Established

                              In addition, upgrades were planned and funded at facilities where U.S.
                              project teams could not fully establish upgrade priorities and strategies
                              and could not fully ascertain use and function of upgrades. Specifically,
                              for six of the nine projects reviewed, U.S. project teams lacked facility
                              access and/or nuclear material inventory information needed to establish
                              upgrade priorities and strategies and determine that installed upgrades
                              were functioning as intended. For example, at some facilities project
                              teams were admitted to non-sensitive areas, but did not have access to
                              areas where nuclear materials were stored or processed for purposes of
                              verifying quantities, establishing upgrade priorities, and ensuring that
                              upgrades were functioning as intended. Similarly, information restrictions
                              included not disclosing specific quantities or locations of materials.
                              Verifying quantities and locations of nuclear materials is essential for
                              establishing proliferation risk and targeting MPC&A upgrades.

                              In one instance, the U.S. project team had not requested facility access.
                              However, in most cases, access to facilities and/or information was
                              denied or restricted based on FSU national security concerns. When
                              access to facilities and information was denied or restricted, U.S. project
                              teams relied on other sources of information to help determine upgrade
                              priorities and strategies and monitor facility upgrades. Information
                              sources used to help prioritize and design upgrades included facility
                              descriptions, documents, schematics, and discussions with site personnel.
                              U.S. project team members also made inferences on amounts and types
                              of nuclear materials present at a given site based on their knowledge of
                              the processes conducted at the site, and of operations at similar U.S.
                              nuclear facilities. Information sources used to help monitor the status of
                              facility upgrades included photographs and videotapes of installed
                              equipment, written certification of site officials, and, in limited cases,
                              operating data from installed equipment.

Upgrade Strategy, Priority,   MPC&A funds and equipment are intended to provide reduction of risk
And Use Must Be               to direct-use nuclear materials on a prioritized basis. The MPC&A
Determined                    Program Strategic Plan indicated that program resources should be
                              concentrated on the most attractive materials for nuclear weapons,


Page 6                                                                                 Details Of Finding
                         namely Highly Enriched Uranium (20 percent and greater) and Plutonium
                         (excluding Plutonium in irradiated fuel). The plan also states that resources
                         devoted to improving MPC&A should be commensurate with the risks
                         presented to the nuclear material and with the level of proliferation risk that
                         would result if the material were stolen or diverted. The importance of
                         establishing upgrade priorities and strategies and determining the continued
                         use and function of upgrades is further illustrated in program documents. The
                         Department's guidelines for upgrades at FSU facilities indicate that upgrade
                         strategies and priorities should be established prior to initiation of upgrades.
                         The guidelines indicate that in order to establish priorities and strategies, U.S.
                         project teams should have access to facilities and to a thorough
                         categorization of nuclear material inventories. In addition, the Department's
                         MPC&A Program Strategic Plan states that to ensure installed upgrades are
                         functioning and operated according to established procedures, periodic
                         reviews are necessary.


Greater Oversight And    Low priority upgrades were planned and funded because U.S. project teams
More Specific Guidance   did not always adhere to the general guidelines outlined in the strategic plan
Needed                   and because of limited Federal oversight of MPC&A projects. Specifically,
                         contractor project teams did not always follow strategic plan guidance to
                         focus on the most attractive nuclear materials and ensure resources were
                         commensurate with risk. In addition, the number of Federal personnel
                         charged with program oversight had been intentionally limited to a level
                         appropriate for a limited duration project. However, since its inception in
                         1994, the scope of the program has expanded dramatically. For example,
                         the number of FSU sites participating in the program increased from 9 sites
                         in FY 1994 to 53 in FY 1998. Furthermore, personnel assigned to the Task
                         Force indicated that they lacked the resources to adequately monitor plans
                         and activities associated with individual projects. For example, in FY 1998
                         only seven Federal personnel worked on the task force responsible for
                         MPC&A program management, of whom four were responsible for project
                         oversight. These individuals were responsible for monitoring the activities of
                         80 MPC&A projects.

                         The Department is currently reevaluating the number of Federal personnel
                         assigned to the Task Force. In March of 1999, the Director of the Office of
                         Nonproliferation and National Security characterized the workload of the
                         average Task Force member as extreme. Furthermore, the Director
                         indicated that because the scope of the tasks facing the


Page 7                                                                              Details Of Finding
         program is now understood to be much larger than anticipated, the task
         force is expected to become larger and longer range in its organizational
         outlook.

         Two of the low priority upgrades we identified were also cited in
         internal peer review reports. Although the Department's MPC&A
         efforts had been underway since 1994, it had only recently begun to
         conduct formal peer reviews, but the process had not yet been
         institutionalized. In January 1999, the Department's MPC&A Task
         Force established a Technical Survey Team to conduct a number of
         project reviews. The survey team is a small group of technical
         specialists who review projects and provide technical advice to the
         Task Force. The survey team also helps U.S. project teams to plan
         and implement upgrades so that they are consistent with recent
         Departmental guidance regarding upgrades. This process is very
         valuable to the Department because it provides an evaluation of project
         priorities, strategies, and progress by technical personnel. It can also
         provide for the redirection of project priorities and strategies that are
         not aligned with program priorities and strategies.

         MPC&A upgrades were planned and funded despite U.S. project
         teams' inability to fully determine upgrade priorities, strategies, and
         operation of upgrades because the Department had not developed
         specific policy on minimum level of access to facilities and information
         required to make these determinations. The MPC&A Program
         Strategic Plan articulated the need to evaluate proposed work to ensure
         that it was necessary, timely, cost-effective, and that all unnecessary
         activities and costs were eliminated. The plan also discussed the need
         to conduct periodic reviews to ensure that all elements of the MPC&A
         systems were functional and operated according to procedures.
         However, the plan does not speak to the minimum level of facility
         access and information needed to make these determinations.

         In March 1999, the Department issued additional instruction regarding
         upgrades at facilities in the FSU. It stated that a thorough
         categorization of nuclear materials inventories is required to properly
         identify and prioritize upgrades. The guidance also indicated that when
         developing a site description, it is desirable to have the U.S. project
         team onsite. If the site was unwilling or unable to provide adequate
         information on the site or its nuclear material assets, the guidance
         indicates that the project team should request assistance from

Page 8                                                           Details Of Finding
                           Departmental program managers to help resolve these problems.
                           However, the guidance did not specify the degree of access to facilities
                           and information required before upgrades could be initiated. Nor did the
                           guidance speak to the level of access to facilities and information needed
                           to determine that installed upgrades are functional, properly operated,
                           and maintained.

                           FSU facilities have legitimate national security concerns regarding their
                           nuclear facilities. Additionally, the supplemental information gathered by
                           U.S. project teams may, to some degree, compensate for lack of access
                           to facilities and information. However, to fully establish the nature of
                           proliferation concerns; determine upgrade priorities and designs; and
                           ensure that upgrades are properly installed, operated, and maintained,
                           access to facilities and information is critical. The importance of access to
                           facilities and information also was cited in the reviews conducted by the
                           recently established Technical Survey Team. Specifically, the survey
                           team indicated that sensitive information concerns of the FSU must be
                           addressed, but not to the exclusion of the ability of the U.S. to determine
                           that upgrades are justified, properly installed, used, and maintained.


Resources Should Achieve   Because the Department lacked assurance that MPC&A resources were
Maximum Risk Reduction     used to fund upgrades on a prioritized basis and that installed upgrades
                           were functioning as intended, it could not ensure that programmatic
                           resources were managed in a way that would achieve maximum reduction
                           of risk to nuclear materials. The low priority upgrades identified in this
                           report were budgeted for $1,320,000. These funds represent an amount
                           that could have been better targeted to higher priority projects or
                           activities, thus maximizing threat reduction achieved for resources
                           invested. Of the budgeted amount, approximately $929,000 was actually
                           spent. The actual amount expended for low priority upgrades represents
                           program funds for which little actual threat reduction was achieved. For
                           facilities where the Department could not fully establish priorities and
                           monitor upgrade status, it could not fully determine that related upgrades
                           were justified, installed properly, used, and maintained.

                           The ability of the Department to ensure that resources were used to fund
                           upgrades on a prioritized basis and that installed upgrades were used and
                           functioning as intended is particularly important, given the significant
                           resources ($137 million in FY 1999) currently dedicated to


Page 9                                                                               Details Of Finding
          the program. Moreover, the National Research Council's Committee on
          Upgrading Russian Capabilities for Controlling Highly Enriched Uranium and
          Plutonium recently recommended that the U.S. Government allocate $725
          million to the MPC&A program over the next 5 years and continue funding
          the program for at least a decade. The committee reported that reducing
          risks posed to nuclear materials will require years of steady work and should
          be a high priority for U.S. national security. Furthermore, the Director of the
          Office of Nonproliferation and National Security recently stated that the
          magnitude of the task facing the program is now understood to be much
          larger than when the program began in 1994, an indication that the program
          will likely require significant future resources.




Page 10                                                             Details of Finding
RECOMMENDATIONS   We recommended that the Assistant Secretary for Nonproliferation and
                  National Security:

                  1. Develop and implement a staffing plan that ensures adequate Federal
                     resources are devoted to project oversight;

                  2. Institute an internal review process that ensures, prior to upgrade
                     initiation, that planned facility upgrades are consistent with the MPC&A
                     strategic plan and program guidelines;

                  3. Institutionalize periodic, independent peer reviews such as those
                     conducted by the Technical Survey Team to help ensure that project
                     priorities and strategies are consistent with the MPC&A strategic plan
                     and program guidelines;

                  4. Develop and negotiate with appropriate Russian officials a policy on
                     minimum levels of access to facilities and information required before
                     upgrade initiation and for verification of upgrade use after installation;
                     and

                  5. Fund only MPC&A upgrades for which the Department can fully
                     establish related priority, strategy, and usage until policy regarding
                     access to facilities and information is developed and implemented.


MANAGEMENT        The Assistant Secretary for Nonproliferation and National Security
REACTION          concurred with the finding and recommendations and indicated that the
                  review and related recommendations will assist in strengthening the
                  MPC&A program. In response to our recommendations, management
                  agreed to:

                  §   Review, update and implement the management plan section dealing
                      with staffing;

                  §   Implement Technical Survey Team reviews of all project work plans to
                      ensure, prior to work being funded, that planned upgrades are
                      consistent with MPC&A guidance;

                  §   Institutionalize annual Technical Survey Team reviews of ongoing
                      activities under each MPC&A project, updating these efforts continually
                      throughout the life of the program;

Page 11                                                Recommendations And Comments
           §   Develop a new policy to provide clear and consistent guidance to
               laboratory project managers on the appropriate level of access to
               buildings and information regarding sensitive nuclear materials in order to
               determine needed upgrades; and

           §   Fund only MPC&A upgrades for which the Department can fully
               establish related priority, strategy, and usage. Specifically, the Deputy
               Director of the MPC&A Task Force stated that funding for work at a
               number of Russian facilities would be withheld until access issues are
               resolved.


AUDITOR    Planned and implemented corrective actions outlined by management are
COMMENTS   responsive to our recommendations. These actions, if properly implemented
           and followed by management, will provide the Department with greater
           assurance that MPC&A upgrades are justified, properly designed, used, and
           maintained.




Page 12                                      Recommendations And Comments
Appendix 1

SCOPE         Audit work was performed between December 1998 and July 1999 at
              Headquarters, and the Sandia, Los Alamos, and Lawrence Livermore
              National Laboratories.


METHODOLOGY   To accomplish the audit objective, we:

              •   Held discussions with personnel from the Office of Nonproliferation and
                  National Security's MPC&A Task Force regarding efforts to help secure
                  nuclear materials in the Former Soviet Union;

              •   Reviewed program documents, including the MPC&A Program
                  Strategic Plan, Guidelines for MPC&A Upgrades at Russian Facilities,
                  and the Department's MPC&A Program Assurance Procedures; and

              •   Held discussions with contractor project teams regarding project
                  management and execution. For a judgmentally selected sample of 9
                  projects, we performed detailed reviews of project plans, contracts,
                  deliverables, invoices, and other supporting documentation. In
                  performing test work on the nine projects, we reviewed 32 task order
                  contracts valued at approximately $7.4 million. Budget information for
                  the selected projects is as follows:


                                                       FY 1998          FY 1999
                         Project        Lead            New              New
                                    Laboratory         Funding          Funding
                            1       Sandia             $3,361,000      $9,000,000
                            2       Sandia              4,642,000       4,010,000
                            3       Sandia              1,389,000       7,700,000
                            4       Los Alamos          5,468,000       5,002,000
                            5       Los Alamos          5,311,000       6,195,000
                            6       Los Alamos          7,436,000       6,500,000
                            7       Lawrence            4,636,000       5,786,000
                                    Livermore
                            8       Lawrence             7,414,000       6,500,000
                                    Livermore
                            9       Lawrence             2,600,000         800,000
                                    Livermore
                                           Total       $42,257,000    $51,493,000

Page 13                                                       Scope And Methodology
          We also met with non-governmental organization officials who were familiar
          both with nonproliferation issues and the Department's MPC&A program.
          These discussions provided an "outsider" perspective on the Department's
          activities.

          The audit was performed in accordance with generally accepted Government
          auditing standards for performance audits and included tests of internal
          controls and compliance with laws and regulations to the extent necessary to
          satisfy the audit objective. Because our review was limited, it would not
          necessarily have disclosed all internal control deficiencies that may have
          existed at the time of our audit. We did not rely on computer-processed
          data to accomplish our audit objective.

          A formal exit conference was waived by the Office of Nonproliferation and
          National Security.




Page 14                                                  Scope And Methodology
Appendix 2


PRIOR OFFICE OF INSPECTOR GENERAL AND GENERAL ACCOUNTING OFFICE REPORTS

This review concerned the Department's efforts to help the Former Soviet Union strengthen its nuclear
material protection, control, and accounting regimes. Prior Office of Inspector General and General
Accounting Office reviews related to nuclear nonproliferation include:

•   Audit of Internal Controls Over Special Nuclear Materials, Report Number DOE/IG-0388,
    dated April 4, 1996. The responsible management and operating contractors had not performed all required
    physical inventories of special nuclear materials and at one site, and did not perform measurements of nuclear
    material shipments due to safety concerns and operational interruptions.

•   Nuclear Nonproliferation: Concerns with DOE's Efforts to Reduce the Risks Posed by Russia's
    Unemployed Weapons Scientists, Report Number GAO/RCED-99-54, dated February 1999. The
    Department's Initiatives for Proliferation Prevention (IPP) program, established to engage former weapons
    scientists of the FSU in peaceful commercial activities, had not achieved its broader nonproliferation goal of
    long-term employment of weapons scientists through the commercialization of research and development
    projects. In addition, 63 percent of program funds was spent in the U.S., mostly by the Department's national
    laboratories in implementing and providing oversight of the program. Further, the amount that the Russian
    scientists received is unknown because the Russian Institutes' overhead charges, taxes, and other fees reduced
    the amount of funds available to pay the scientists.




Page 15                                                                                             Prior Reports
                                                                                IG Report No. DOE/IG-0452

                                      CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We wish to
make our reports as responsive as possible to our customers' requirements, and, therefore, ask that you consider
sharing your thoughts with us. On the back of this form, you may suggest improvements to enhance the
effectiveness of future reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the audit
   would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this report to
   assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more clear to
   the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this report
   which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions about
your comments.

Name _____________________________               Date __________________________

Telephone _________________________              Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                        Office of Inspector General (IG-1)
                                              Department of Energy
                                             Washington, DC 20585

                                           ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586-1924.
   The Office of Inspector General wants to make the distribution of its reports as customer
friendly and cost effective as possible. Therefore, this report will be available electronically
                   through the Internet at the following alternative addresses:


          U.S. Department of Energy Management and Administration Home Page
                                http://www.hr.doe.gov/ig
                                           or
                                 http://www.ma.doe.gov


             Your comments would be appreciated and can be provided on the
                    Customer Response Form attached to the report.
